       DRG 87: PULMONARY EDEMA AND

                   RESPIRATORY FAILURE




      to"
      .. stRV/CE




 10
      :flf...ua



OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                         AUGUST 1989
  DRG 87: PULMONARY EDEMA AND

       RESPIRATORY FAILURE





                   RICHARD P. KUSSEROW
                    INSPECTOR GENERAL




OAI. 12-88-01200                         AUGUST 1989

                             Contract Information



Contractor                         Project Officer


BOTEC Analysis Corporation         David Hsia, J.D., M. D., M.
36 JF Street                       Health Car Brach
Cambridge, MA 02138                Offce of Inspector General
                                   330 Independence Ave., SW
                                   Washington, D. C. 20201



Contract
HHS- l00- 88- 0019
                                EXECUTIVE SUMMARY


BACKGROUND

Diagnosis related group (DRG) 87 pays for pulmonar edema and respiratory failure. Only
five, very specifc, ICD- CM codes group to DRG 87 as principal diagnoses. Disorders such
as cQngestive hear failur, chronic obstrctive pulmonar disease, asthma, bronchitis, and
pneumonia also involve lung pathology, but should group to other DRGs with lower relative
weights.

FINDINGS

             Overall , 56. 0 percent of the discharges biled as DRG 87 should have been
             assigned to a different DRG. . This error rate significantly exceeds the 18.
             percent for all DRGs from the National DRG Valdation Study.

             Hospitals overpaid themselves in 96.4 percent of the incorrect DRG
             assignments. This ratio significantly exceeds the National DRG Validation
             Study s 59. 7 percent of overpayments.

             The codng errors principally derived from physician mis-specification of the
             pricipal diagnosis or   hospital resequencing of the diagnoses to substitute
             respiratory failur for the corrct principal diagnosis.

RECOMMENDATIONS

            The Health Care Financing Admnistrtion (HCFA) should diect the peer
            review organizations (PROs) to review prospectively DRG 87 bils for codng
             accurcy.

            The HCFA should diect the PROs to educate physicians and hospitals about the
            proper codng ofDRG 87.

The HCFA disagrees with the fist recommendation and believes that it has implemented the
second recommendation. The Offce of Inspector Genera has altered this report to accom­
modte HCFA' s comments and continues to believe that adopting these recommendations
could recover a projected $35.5 milion annually. The HCFA has alady implemented a third
recommendation made in the drt of this inspection.
                     . . . . . .. . .. .. .. .. ... .. .. .. .. . .. .. .. ......... .
                                                                                     ... ..                                                . . . . . . . ... .... ... ................ ... .................. ............
                                                                                                                                          .... ..... ..... ...
                                                                                          ... ..... .... ................................ .                  . ................................                         .... .
                                                                                                                                                                                              .......................................
                                                                                                                                                                                                                                    ............................ .. .




                                                                          TABLE OF CONTENTS

   EXECUTIVE SUMMARY

   INTRODUCTION
        Background
        PPS vulnerabilities
            Claims processing. . . . . . . . .
            DRG 87 .. . . . .
            Methodology. . . . . . . .

   FINDINGS
        Sample charcteristics. . .
            Assignment errrs. 

            Dirction of errrs. .
            Soure of errors. . .
            Reasons for assignment errors
            Financial effects
            Corrct DRG assignments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
            Clinical review results. . . . . . . . . . . . . . . . . .

   RECOMMENDATIONS

   Appendix A- I: DRG 87 discharges from all PPS hospitals. . . . . . . . . . . . . . . . . . . . . . . . . A-

   Appendix A- 2: DRG 87 sampling                                                 fre                                                                                                                                                          . . . . A-

   Appendix A- 3: DRG 87 hospital demography. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-

   Appendix A-4: DRG 87 hospital demography comparson. . . . . . . . . . . . . . . . . . . . . . . . . A­

   Appendix A-S: DRG 87 patient demogrphy
. . . . . . . . . .
   Appendix A- 6: DRG 87 patient demogrphy comparson. . . . . . . . . . . . . . . . . . . . . . . . . . A-

   Appendix B- 1:      DRG 87 assignment errors                                                                                                                                                                                                       . . B-

   Appendix B- 2:      DRG 87 assignment errors comparson . . . . . . . . . . . . . . . . . . . . . . . . . . . B-

   Appendix B- 3:      DRG 87 assignment errors by patient demography . . . . . . . . . . . . . . . . . . B-

   Appendix C- l:     DRG 87 diection of errr.                                                               .                                                                                                                                           . C-

   Appendix C- 2:      DRG 87 diction of error comparson. . . . . . . . . . . . . . . . . . . . . . . . . . . . C­
                                                                         ... .. .. .. .. .. ..    . .. . . . . ....... . .
                                                                                                                  . .. .. ...................
                                                                                            . .. .. ... .. .. .. ..          .. . . . . . . . . . . . . . . .




            Appendix C- 3:        DRG 87 diction of error by patient demography. . . . . . . . . . . . . . . . . . . C-

            Appendix D- l:       DRG 87 hospital deparent makng error. . . . . . . . . . . . . . . . . . . . . . . . . D-

            Appendix D- 2:        DRG 87 hospital deparent makng error comparson. . . . . . . . . . . . . . . D-

            Appendix D- 3: DRG 87 hospita deparent makng error by patient demography. . . . . . D-

            Appendix E- l:       DRG 87 reasons for errors                                                                                                      . . E-

            Appendix E- 2:        DRG 87 reasons for errrs             by hospital           demography. . . . . . . . . . . . . . . . . . E-

            Appendix E- 3:       DRG 87 reasons for errors comparson.........                                               .... .. ... .. ... .. E-



            Appendix E-4:        DRG 87 reasons for errors by patient demogrphy. . . . . . . . . . . . . . . . . . . E-

            Appendix F - 1: DRG 87 corrected relative weights. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-

           Appendix F -2: DRG 87 corrected reimbursement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-

           Appendix F- 3: DRG 87 projected cost of errors
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-
           Appendix G- l:         Correct    MDC for discharges miscoded to DRG 87

           Appendix G- 2: Correct DRG for discharges miscoded to DRG 87 . . . . . . . . . . . . . . . . . . . G-

           Appendix G- 3: Correct ICD- CM principal diagnoses for discharges
           miscoded to DRG 87 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . G-

           Appendix G- 4:  Orginal ICD- CM principal diagnosis for discharges
           incorrectly coded to DRG 87 ................................................ G-


           Appendix G- S: ICD-              CM codes for discharges corrctly coded to DRG 87 . . . . . . . . . . . G-

           Appendix H- l: DRG 87 clinical review. . .                                                                     . . . . . . . . . . . . . . . . H-

           Appendix H- 2: DRG 87 clinical review comparson.. . .                                                                  . . . . . . . . . .. . . H­
                                     INTRODUCTION


Background

On October 1, 1983, the Health Car Financing Admistration (HCFA) began implementing a
new system of payment for inpatient hospital services under the Medicar program. The new
prospective payment system (PPS) replaced the cost- based reimbursement system. Congrss
mandated this change because of rapid growth in health care costs, parcularly inpatient ex­
penses under Medicare.

Under PPS, hospitals received a pre-established payment for each discharge, based upon the
diagnosis related group (DRG) to which the discharge is assigned. PPS classifed discharges
into clinicaly coherent groups which used simlar amounts of hospital resources, based on
varables such as diagnosis; evaluation and tratment procedures; and patient age, sex, and dis­
charge status. Each of the 473 DRGs had an associated relative. weight, which represented the
average cost for hospital care provided to patients with diagnoses gruping to that DRG as a
proporton of the cost of the average patient The hospita received this payment, independent
of the actual lengt of hospitalzation or cost of treatment for the individual patient The
hospital retaned any surlus from patients consumig less than the expected amount of resour­
ces, and suffered losses on those patients consuming more.

The shift from cost-based, retrospective reimbursement to prospective payment constituted
one of the most dramtic changes in health care reimbursement since the creation of Medicare.
A fixed payment per discharge induced hospitals to implement economies and reduce unneces­
sar servces. The total payments to the hospitas provided the same financial resources for
patient car. In effect, PPS reversed the financial incentives for hospitals. Where the cost-
reimbursement system rewarded longer hospita stays and more costly tratments, PPS
rewarded earlier discharges and less costly procedures. One of the first consequences of the
new payment system was a drop in average length of hospita stay for Medicare patients.

PPS vulnerabilties
The advent of PPS created new opportnities for manipulation or " gamng " to increase hospi­
tal revenues from Medicar patients. To protect the integrty of PPS and maitain quality of
care Congress established the peer review organizations (PROs) to monitor hospital activities.

The Office of the Inspector General (OIG) conducted The National DRG Validation Study
(NDRGVS) to surey the general accuracy of DRG assignment and qualty of care performed
by hospitas under PPS. Its examnation of 700 medical records established that assignment
errors resulted in $300 milion in overpayments to hospitals, and that the majority of overpay­
ments could be trced to assignment errors afecting a small number of DRGs. This report is
one in a series examning assignment accuracy of one of the DRGs identied as having the
highest impact on overpayments under PPS and the gratest potential for cost recovery.
PPS gamg takes two principal forms: optimization and creep. " Optimzation " strategies ad­
here to codng rules, but maximi hospital reimburements by selecting the most expensive
among viable alternative principal diagnoses or adding more secondar diagnoses. PPS per­
mits optization, which flows from the basic incentive strctu of the PPS system.

 DRG creep " results from codg practices which do not conform to codng rules. Sources             of
DRG crp include:

      Misspecijcation:        The attending physician wrtes an incorrct principal diagnosis
      (defied by the   Uniform Hospital Discharge Data Set (UDS) as " that condition
      established after study to be chiefly responsible for occasioning the admssion of the
      patient to the hospital for care ), seconda diagnoses, or procedurs on the attestation
      sheet.

      Miscoding:         The hospita assigns incorrct numeric   codes to diseases or procedures
      corrctly attested to by the attending physician.

      Resequencing:         The hospital substitutes a seconda diagnosis for the corrct   principal
      diagnosis.

Auditig and review practices seek to curail ilegal creep        by identiying discharges in which
codng rules are misapplied or ignored.

Claims processing

Under PPS, the hospita fies a clai for Medicare reimbursement upon discharging the
beneficiar. At the time of discharge, the attending physician attests to the principal diagnosis
which caused the patient s adssion to the hospita, seconda diagnoses, and procedures
(diagnostic and therapeutic) provided. The hospita translates the narative diagnoses of the
physician s attestation statement into numeric codes based on the International Classification
of Diseases, Ninth Revision , Clinical Modcation (lCD- CM), and prepars a claim. Fiscal
intermediar (P organizations, working under contract with HCFA , enter the hospital' s codes
into the GROUPER computer progr which assigns the appropriate DRG for reimbursement.

Hospita reimbursement is calculated by multiplying the "relative weight " of each DRG
category by a standadized amount, as moded by certn hospital-specific factors. The rela­
tive weight of each DRG vares above or below 1.       00accordig to the average amount of
hospital resoures used by patients in that diagnostic group. The higher the relative weight,
the greater the reimburement. Mis-assignment of the ICD- CM categories, or erroneous as­
signment or sequencing of patient diagnoses, can thus have significant financial implications.

DRG 87

This study examnes erroneous assignment in a single DRG: 87, pulmonar edema and
                             covered by this inspection , only five ICD- CM codes group
respirtory failur. At the time
to DRG 87: thee types of pulmonar edema and two forms of pulmonar insufficiency.
               - - - --
                     ---- -
                          - , --- ;'::: ",",
                              - -- --        , "'
 ..
                                                 ---
                                   - - -- !-- - - ---- ------
                                                           - ---
                                                           -- --- --
                                                                  -,-----
                                                                    - --
                                                                      -------- - - --
                                                                            - ---                        :::
                                                                                   - - - -- -- ------ -- ---- -~~~~~~     ---- - --
                                                                                                               ---- -- ----      ---- -- --
                                                                                                                                         -- ------------ -- -- -- ---- - - - - --       ---.
                                                                                                                                                                                        ---.-_.
                                                                                                                                                                                        ............. g.,




Physiologically, the former condition consists of fluid fillng the lungs, usually secondar to
cardiac (e. g., advanced left hear faiure, mitr stenosis) or occasionally to non-cardiac (e.
narcotic overdose, high altitude sickness, neurogenic) causes. The latter adds severe arerial
hypoxemia to the liquid in the lungs and has equaly diverse causes (e. g., infection, aspirtion
toxin inhalation, imunological response, truma).
                                                                                                                                                                                      Relative Weight

                                                                                                                                                                                     Discharges (10 K)
   8 -- ---
                                                                                                                                                                                     Charges ($100 M)


                                                                                                                                                                                     Payment ($100 M)

                                                                                                                                 :2::                              ;:;L             Mean payment ($1 K)
                                                                                                                                                                                        _U_"_U.

   2 -- -





             1984                               1985                                    1986                                   1987                                    198
                                                                                  Fiscl Year


                                                                                          Figure 1: DRG 87

Each of these conditions represents an end stage (and often termal) complication of diseases
grouping to other DRGs. Disorders such as congestive hear faiure, chronic obstrctive pul­
monar disease, asthma, bronchitis, and pneumonia also involve lung pathology, but should
group to other DRGs with lower relative weights. A chest X-ray should distinguish between
the mid stage of the underlying cause and the fluid buildup required for DRG 87. Arerial
bloo gases and invasive procedurs may serve to furer define the pulmonar edema and its
etiologies. (Appendix A­
Methodology

This study used a strtified two-stage sampling design based on hospitals to select medical
records for review. The fist stage used simple random sampling without replacement to
select up to 80 hospitas in each of thee bed size strata: Less than 100 beds (small), 100 to
299 beds (medium), and 300 or more beds (large) The second stage of the design employed
systematic random sampling to select at least 25 DRG 87 bils from each strata for Medicar
discharges between October 1, 1984 and March 31 , 1985.




                                               100 beds




                                            10029 beds


                                             1:.:.:.:.:.:.:.:.
                                             30+ beds

                   DRG 87                                                      All DRGs




                                    Figure 2: Samplil)g frame

The OIG contrcted with the Health Data Institute (HI)            of Lexington , Massachusetts to
reabstrct the medical records. Upon receipt, the contrctor " blinded" the ICD- CM codes
by covering them, and assigned an identification number to each record. An Accredited
Record Technician or Registered Record Admnistrator proficient in ICD- CM codng
reviewed the enti record to substantiate the principal diagnosis, other diagnoses, and proce­
dures indicated by the attending physician in the narative attestation form. Any records
which did not support the assigned DRG classification were referred to physician reviewers.
The physician reviewers designated the corrct Uniform Hospita Discharge Data Set pricipal
diagnosis, and additional diagnoses and/or proedures which were substantiated by the patient
records. The GROUPER computer program processed the reabstracted ICD- CM codes to
determne corrct DRGs. A full discussion of the methodology and fmdings of the contractor
record review is available in the fmal report of the National DRG Validation Study (available
from OIG Public Affais).

DRG 87 was chosen for this inspection because of its high relative weight (1. 5368) and its
high rate of errors. The OIG contrcted with BOTEC Analysis of Cambridge, MA to examne
data for DRG 87 in greater detal , to identiy sources of assignment errors, and to make recom­
mendations for recovery of overpayments.
                                                                .... .-. ..- -.---..-
                                                                     ...--
                                                                 ::_ ::'....-.       -.:.;._" .-----..
                                                                                                 =-"-' ' ,
                                                                                               ':.           -- -.-- -.-
                                                                                                                     -..----.
                                                                                                                        -.-




                                          FINDINGS

Sample characteristics
In FY 1985, 90, 917 of the 8.3 milion PPS discharges (1.1 percent) grouped to DRG 87. The
National DRG Validation Study estiated that approximately equal proportons came from
each bed size strta. Small hospitals therefore biled for DRG 87 at a higher rate than large
and medium sized institutions as a proportion of all PPS bills (Chi-square 4. 09, df 2
       25). In the fist half of FY 1985, the 239 hospitals selected in stage-one of the sample
design (the sampling      fre) biled for 222 396 discharges of which 2,417 came from DRG 87
(1. 1 percent). The sampling frame reflects their higher frequency of discharges from larger
hospitals, while the sampling frction capturs the significantly higher rate in smaller hospitas
(Chi-square 3. , df 1, P 
      1). (Appendix A­

Additionally, the two-stage sample design permts calculation of separate results for Medicar
beneficiares (the probabilty of something happening to a person) and hospitals (the odds' of
an event at a parcular hospita). The appendices, tables, and char therefore report in­
dividual totas weighted by both discharges and hospitas.
                                                                                              Yes

         DRG 87: Urban

        All DRGs: Urban



      DRG 87: Teaching

     All DRGs: Teaching



          DRG 87: Profi

        All DRGs: Profi                                                 rt "" - ..

                                                                                                                                100
                                                Percent of discharges

                                  Figure 3: Hospital demography

Like all Medicar discharges as measured by the National DRG Validation Study, the majority
ofDRG 87 discharges came from urban (Mantel-Haenszel chi-square 0. 16, df 1 , P         75),
nonteaching (Mantel- Haenszel chi-squar 0. 59, df I , P     5), and nonprofit (Mantel- Haenszel
chi-squar 0. 05, df I , P   9) hospitas; but not a signifcant rates when controllng for hospi­
tal size. (Appendi A- 3J In comparson to all PPS discharges, a slightly larger proportion of
DRG 87 discharges came from      ru  and nonteaching hospitals. (Appendix A­
=-




                       DRG 87 National DRG Medicar Validation Study

              Age (year)                       71.5         73.        not available

              Sex (% mae)                      57.          46.        42.
             LOS (days)                         8.3
             Payment ($)                      41.87         3150       2985 urban
                                                                       2381
             Mortity (%)                       20.3             6.3    not available


                                    Table I: Patient demography


Comparng personal characteristics, DRG 87 patients proved to be slightly younger (t-est
     30, df91 , P -c 0. (05), to be more male (Mantel- Haenszel chi-square 7.37, df 1 , P -c 0. 01),
and to have over thee ties the mortity of all Medicare beneficiares. (Appendix A- 5). The
average hospital stay ra a day longer, and the average reimbursement went over $100 higher
for discharges paid as DRG 87. (Appendi A-

Assignment errors

Weighted to represent discharges, 56. 0 percent of this sample s bils should have grouped to
another DRG. This error rate significantly exceeded the 18. 6 percent for all DRGs (Mantel-
Haenszel chi-square 84. 29, df 1, P -c 0. (01). Assignment errors occured most frequently in
discharges from smal hospitals (Chi-square 3. 60, df 2, P -c 0. 25). (Appendix B­


                                                            DRG 87             All DRGs




                           ..100                 10029                   30+
                                                 Be size
                                      Figure 4: Coding errors

Rural and for-profit facilties had the highest rate of codng errors, with over three- quarers of
discharges grouping to other DRGs. Teaching and urban hospitals had the lowest frequency
of errors, mis-assigning 36. 6 and 45. 6 percent of their discharges respectively. (Appendix B­
           --------       .....
                             '" 
.....
                             ..,    ...
                            -------------------
           -------- .. . . --------------------
                             - -- - - -- -- - - - - - -- -- - ...      -------------------
                                                              -- - .- --
           - --- - -- - --------------------------- ----------------     - - - - - - - - --- - -- - - -- -......
                                                                      -------------------                    -....    -------------
                                                                                                                -. -. -- - -- - - --- - --




Patient demographics differ between the correct and incorrct subsamples of discharges. In
discharges assigned incorrctly, patients were on average slightly older, more frequently
femae, and had higher mortality. The length of hospital stay averaged slightly longer, but
reimbursements lower, in discharges incorrectly assigned to DRG 87. (Appendix B-

 Direction of errors

The overwhelmng majority of errors in assignment for DRG 87 resulted in overpayments to
hospitals. Weighted by discharges, hospitals overpaid themselves in 96.4 percent of codng
mis-assignments. In other words, hospitals biled discharges with lower weighted diagnoses
as DRG 87 which, in 1985, had a relative weight of 1.5368. This rate signifcantly exceeds
the 59. 6 percent overpayments rate for all discharges (Mantel-Haenszel chi-square 1. 05, df I
P c: 0. 5). Combining the 56. 0 percent error rate with this 96.4 percent overpayment rate gives
an effective overpayment rate of 54. 0 percent. This rate is nearly five times the 11. 1 percent
for the National DRG Validation Study. (Appendix C-


     Percent

                                                                                                                                                 DRG 87: Overpaid
                                                                                                                                                 All DRGs: Overpaid
                                                                                                                                             CI DRG 87: Underpaid
                                                                                                                                             EJ All DRGs: Underpaid




                             ..100                                  10029                                      30+
                                                                   Bed size


                                                                  Figure 5: Direction of errors

Hospitals of al tyes overpaid themselves on  DRG 87 errors. However, except for nonteach­
ing status (Mantel-Haenszel chi-squar 3. , df 1 , P c: 0. 05), these demographic trnds did not
signficantly exceeded those in the National DRG Validation Study when controllng for hospi­
tal size. (Appendi C- 2) While there were some differences in patient demographics among
over- and under-paid discharges, the number of underpayments was too small to allow mean­
ingful analysis of these dierences. (Appendix C-

Source of errors

Almost all the errors in this sample can be traced to the hospitas ' medical records practices.
Fifty- thee cases were miscoded as DRG 87 and biled accordingly. Only one case was coded
corrctly to a DRG other than 87 but biled incorrectly as DRG 87 by the hospita. (Appendi
                                               !:::::::::::::::::::::::::::::::




Reasons for assignment errors
Physicians made the majority of errors by incorrctly specifying the diagnoses or procedures
on patient attestation sheets. This mis-specification caused 48. 2 percent of the mis-assign-
ments. Most of these errors concerned the nartive pricipal diagnosis. In one case, the
physician mis-specified a procedure. 29. 6 percent of errors occurd when the hospita rese­
quenced the narative to substitute a seconda diagnosis for the corrct principal diagnosis. A
smaller number of errors resulted when the medical records deparent selected incorrect
numeric codes for correct nartive diagnoses. The distrbution of errors in this sample be­
tween physicians and other hospital deparents approximated the trnds in the entie Nation­
al DRG Valdation Study. (Appendix E-


                                               t.:.:.:.:.:.:.:.:1
                                             Misspeclfcation



                                               Miscing


                                             Resuenclng

                DRG 87                                                            All DRGs
                                                     Oter


                                    Figure 6: Reasons for errors


The reasons for errrs in biling   discharges to DRG 87 vared slightly by hospital
demogrphics. (Appendix E- 2)      Narative   (physician) errors occured parcularly frequent
discharges from small hospitals and mid-sized facilties.  Large hospitals, in contrst, had
higher rates of miscodg and resequencing errors. Teaching hospitals miscoded records at
over twice the rate of non-teaching hospitas, but non-teaching facilties resequenced diag­
noses nearly twice as often as their non-teaching counterpars. In discharges from for- profit
hospitals, narative errors appeared frequently, but no resequencing errors. Patient age, sex,
length of stay, and mortity were roughly similar across error tyes. (Appendix E-

Financial effects



After reabstrction , the average relative weight for DRG 87 discharges in this sample dropped
from 1.5368 to 1.2277. Discharge weighted, the decrease amounted to a net overpayment of
19. 3 percent and applies to FY 1984- 87 without modfication. (Appendix F­
              - - - -- -------   - - - --- ---- ---- --- - - - - - -- - - - - - - --- - -- - - --- - - -- - - - - ------
                                                                                                                      - ----
                                                                                                                          - - -- -- --
                                                                                                                                    - ------ --- --- - -- ----     - - ---- -- -- ----- -- ---- ---
                                                                                                                                                            - - -- ---




          Smlllon




              1984                       198                          198                       1987                           198                          198                          1990
                                                                                             Fiscal Year

                                                                            Figure 7: Overpayments

Effective October 1987 and subsequent to the period sampled for this inspection, the HCFA al­
tered the grouper to drop one ofDRG 87's more common principal diagnoses: 799. 1 -­
respirtory faiur). This change would afect 61.1 percent of the discharges erroneously
biled as DRG 87. Accordigly, this inspection decreases its estimated overpayment rate to
11.8 percent for FY 1988 and ensuing year. At this time, the HCFA also added DRGs for ven­
tilator patients, a much rarr occurnce. (Appendix F­

DRG 87 tota reimbursement peaked in FY 1985 and has subsequently averaged around $300
millon annually. Despite the grouper changes and a decrease in the relative weight, the total
number of discharges and dollar reimbursement incrased in FY 1988. Simple regression
from the 1984- 88 data projects that tota reimbursement wil contiue to increase.


Correct        DRG        assignments
Following reabstraction, the incorrctly biled discharges in this sample pricipally clustered
in Major Diagnostic Categories (MDCs) 04 (respiratory system) -- 53. 7 percent and 05 (cir­
culatory system) -- 40. 7 percent. (Appendix G- l) Within these two MDCs, five specifc
DRGs had 3 or more discharges and accounted for 81. 5 percent of the erroneously biled
cases: DRG 88 (chronic obstrctive pulmonar disease), DRG 89 (pneumonia and pleursy),
DRG 96 (bronchitis and asthma), DRG 99 (respiratory signs and symptoms), and DRG 127
(hear failure and shock). Each of these DRGs has a lower relative weight than DRG 87. (Ap­
pendi G-


Analyzed at the level of ICD- CM codes, a varety of erroneous principal diagnoses appear,
includig congestive hear failure, acute bronchitis, nonspecific pneumonia, and chronic ai-
way obstrction. (Appendix G- 3J Examing the codes on erroneous DRG 87 bils
respirtory failur (no longer an acceptable pricipal diagnosis) constitutes 61.1 percent of this
subsample. As noted above, this grouping change reduced the rate of overpayments. (Appen­
dix G­
-- --       ----------------




 The majority of cases corrctly    assigned to
                                                                                                   - - - - - -- -----
                                                                  - - --- - --- - - - - - - - - - ._.-




                                              DRG 87 also involved patients with respiratory
 faiure. The balance of corrctly biled discharges have acute lung edema -- not otherwise
 specified, as their principal diagnosis. (Appendix G-
                                                                                                                   - - - - --
                                                                                                                           - --
                                                                                                                              - -------




        Percent


                                                                                                               DRG 87


                                                                                                               All DRGs




                  Unneeed admissions          Poor quality care                 Premature discharges


                                       Figure 8: Clinical incidents


 Clinical review results

 Reviewers concluded that only 1.3 percent of discharges in this sample constituted unneces­
 sar admssions (" an admssion in which the care received by the patient was either not
 needed or did not require the use of the inpatient setting. " ) (Appendix H- l) However, this rate
 did not dier signifcantly from the 10. 0 percent for all DRGs (Chi-squar 3. 2, df 2, P .. 0. 25).
 Two discharges were judged to have been prematur, a rate also not significantly different
 frm the National DRG Valdation Study (Chi-square 1.66, df 2, P.. 0. 50). (Appendix H-
  Overal, 8. 8 percent of discharges in this sample (discharge-weighted) evidenced " quality of
. care not meetig professionally recognized standards. " Qualty of care problems concentrted
  in discharges from small hospitals, which had over twice the rate of poor qualty compared to
  other hospitals in this sample, and substantialy more problems than discharges from small
  hospitals in the full National DRG Validation Study.
                                RECOMMENDATIONS

     The Health Care Financing Admnistration should      dict the peer review organizations
      to review prospectively DRG 87 bils for codng accurcy.

     The HCF A should diect   the   PROs to educate physicians and hospitals about the proper
     codng of DRG 87.

The HCFA disagrees with the fist recommendation and believes that it has implemented the
second recommendation. The OIG has considered the HCFA' s comments on the drt of this
report and contiues to believe that adopting these recommendations could recover a projected
$35. 5 millon annually. The HCFA has alady implemented a third recommendation made in
the draft of this inspection.
                Appendix A- 1: DRG 87          discharges from all PPS hospitals
 Fiscal Year                           1984            1985                1986                 1987               1988

 Relative weight                    1 . 5529           5368               6316                  8076
                                                                                              1 .              5691
Number of discharges                46, 832          90, 917             64, 498                 224         65, 053
Total charges ($ millon)              332.4           737.                555.                 424.           544.
Total reimbursement ($ milion)        193.            397.                304.                 248.           286.
Average reimbursement ($)               126              372                 723                    251            402




                          Appendix A-2: DRG 87 sampling frame
Number                                                     Bed size                                        Total
                                     ..100                 100- 299                  300+

Medicare population                 23, 911                33, 367                  33, 639               90, 917
Sample hospitals                       214                     742                    1461                 2417
Sampling frame
Sampling fraction (%)                  18.




                     Appendix A-3: DRG 87 hospital                    demography
Number                            Bed size                                           Weighted percentage
(Percent                .. 1 00   100- 299         300+          Total       Sample          Discharge     Hospital
distribution)

Urban                   4 (10.    20 (71.4)      25 (100)                    (53.               (65.        (44.4)
Rural                 35 (89.      8 (28.          0 (0.                     (46.               (34.        (55.
Teaching                 0 (0.     4 (14.        13 (52.                     (18.               (24.        (12.
Nonteaching           39 (100)    24 (85.        12 (48.                     (81.               (75.        (87.
Profit                  4 (10.     4 (14.          0 (0.                      (8.                (7.        (10.
Nonprofit             35 (89.     24 (85.        25 (100)                    (91.               (92.        (90.
Total                 39 (100)    28 (100)       25 (100)                    (100)              (100)        (100)
               Appendix A-4: DRG 87 hospital demography comparison
Percent                             Bed size               Weighted percentage
distribution                c:100   100- 299   300+    Sample      Discharge   Hospital

Urban            DRG 87      10.      71.4       100     53.          65.         44.4
                 NDRGVS      19.      70.       94.      62.          71.         48.

Rural            DRG 87      89.      28.                46.         34.          55.
                 NDRGVS      80.      29.                38.         28.          52.

Teaching         DRG 87               14.      52.       18.         24.          12.
                 NDRGVS               18.      55.       25.         31.          16.

Non-             DRG 87      100      85.      48.       81.         75.          87.
teaching         NDRGVS      97.4     81.      44.       74.         68.          83.

Profit           DRG 87      10.      14.                                         10.
                 NDRGVS               17.                                         10.

Non-             DRG 87      89.      85.       100      91.         92.          90.
profit           NDRGVS      90.      82.      97.       90.         90.          89­




                    Appendix A-5: DRG 87 patient demography
                                    Bed size                   Weighted average
                            c:100   100- 299   300+    Sample     Discharge    Hospital

Age (years)                 74.       72.4     67.       72.         71.          72.
Sex (% male)                69.       50.      52.       58.         55.          60.
LOS (days)                                     11.
Payment ($)                 2868     4217      5476     3987        4328       3720
Mortality (%)               12.       32.      16.       19.         21.          19.
(%)
($)




            Appendix A- 6: DRG 87 patient demography comparison

                                 Bed size                  Weighted average
                         c:100   100- 299   300+   Sample     Discharge   Hospital

Age           DRG 87      74.      72.      67.      72.         71.          72.
(years)       NDRGVS      76.      74.      72.      74.         73.          74.

Sex           DRG 87     69.       50.      52.      58.         55.          60.
(% male)      NDRGVS     43.       45.      48.      45.         46.          44.

LOS          DRG 87                         11.
(days)       NDRGVS

Payment      DRG 87      2868     4217      5476    3987        4328      3720
             NDRGVS      1849     2923      3807    2860        3074      2508

Mortality    DRG 87      12.       32.      16.      19.         21.          19.
             NDRGVS
                    Appendix B- 1: DRG 87                       assignment errors
 Number                          Bed size                                               Weighted percentage
 (Percent)          c:100        100- 299                300+          Total    Sample       Discharge      Hospital

 Urban              2 (50.           6 (30.           14 (50.                    (44.          (42.            (43.
 Rural             25 (71.4)         7 (87.                                      (74.4)        (50.            (65.

Teaching                           0 (0.               6 (46.                    (35.          (17.             (7.
Nonteaching         27 (9.       13 (54.               8 (66.                    (64.          (62.            (63.

 Profit             3 (75.           3 (75.                                      (75.          (47.            (63.
 Nonprofit         24 (68.       10 (41.              14 (56.                    (57.          (54.            (57.

Total              27 (69.       13 (46.4)            14 (56.                    (58.          (56.            (59.




              Appendix B-2: DRG 87               assignment errors comparison
Percent                                       Bed size                             Weighted percentage
                               c:100          100- 299          300+           Sample      Discharge     Hospital

Urban          DRG 87          50.              30.             50.              44.         42.          43.
               NDRGVS          22.              19.             16.              18.          17.         20.4

Rural          DRG 87          71.4             87.                              35.         50.          65.4
               NDRGVS          23.              16.             22.              21.         20.          21.

Teaching       DRG 87                                           46.              35.         17.
               NDRGVS          20.              20.             15.              17.4        17.          19.

Non-           DRG 87          69.              54.         66.                 64.          62.          63.
teaching       NDRGVS          23.              17.             17.             20.          19.          20.

Profit        DRG 87           75.             75.                              75.          47.         63.
              NDRGVS           23.             18.          18.                 20.          19.         21.
Non-          DRG 87           68.             41.          56.                 57.          54.         57.
profit        NDRGVS           23.             18.4         16.                 19.4         18.         20.

Total         DRG 87           69.             46.4         56.                 58.          56.         59.
              NDRGVS           23.             18.          16.                 19.          18.         20.
(%)
($)




      Appendix B- 3: DRG 87     assignment errors by patient demography
                                  Bed size                  Weighted average
                        c:100     100- 299   300+   Sample     Discharge   Hospital

Age         Correct     68.         70.      68.      69.         69.          68.
(years)     Incorrect   76.         74.      67.      74.         72.          74.

Sex         Correct     75.         46.      63.      60.         60.          64.
(% male)    Incorrect   66.         53.      42.      57.4        53.          58.

LOS         Correct                           8.4
(days)      Incorrect                        13.

Payment     Correct     2959       4658      5278    4301        441       3879
            Incorrect   2829       3708      5632    3767        4189      3558

Mortality   Correct                                  18.4         17.       16.
            Incorrect   14.         30.      21.4    22.          23.       21.
                     Appendix C-1: DRG 87 direction of error
 Number                           Bed size                                              Weighted percentage
 (Percent of        c:100         100- 299               300+          Total    Sample       Discharge     Hospital
 errors)

 Urban               2 (100)          6 (100)          13 (92.                   (95.          (97.4)          (98.
 Rural             24 (96.            7 (100)                                    (96.          (61.            (82. 1 )

 Teaching                                               5 (83.                   (83.          (30.            (13.
 Nonteaching       26 (96.        13 (100)               8 (100)                 (98.          (99.            (98.

 Profit              3 (100)          0 (0.                                      (50.          (54.            (67.
 Nonprofit          24 (100)      10 (100)            13 (92.                    (98.          (97.4)          (98.

Total              26 (96.        13 (100)            13 (92.                    (96.          (96.4)          (97.




               Appendix C-2: DRG 87 direction of error comparison
Percent                                       Bed size                             Weighted percentage
overpayments                   c:100          100- 299          300+           Sample     Discharge     Hospital

Urban          DRG 87          100.            100.              92.             95.         97.4        98.
               NDRGVS           53.             60.4             57.             58.         57.         56.

Rural          DRG 87           96.            100.                              96.         62.         82.
               NDRGVS           66.             57.              65.             64.         62.         63.4
Teaching       DRG 87                                        83.                83.          30.         13.
               NDRGVS           66.             59.          56.                57.          59.         62.

Non-           DRG 87           96.           100.          100.                98.          99.         98.
teaching       NDRGVS           64.            59.           59.                61.          60.         61.
Profit         DRG 87          100.                                             50.          54.         67.
               NDRGVS           68.             55.          63.                60.          61.         63.
Non-           DRG 87          100.           100.           92.                98.         97.4         98.
profit         NDRGVS           63.            60.           57.                60.         59.          61.
Total          DRG 87          96.            100.           92.                96.         96.4         97.
               NDRGVS          64.             59.           57.                60.         59.          61.
(%)
($)




         Appendix C-3: DRG 87 direction of error by patient demography
                                  Bed size                   Weighted average
                          c:100   100- 299    300+   Sample    Discharge   Hospital

Age           Overpaid     77.      74.       67.      74.        72.       74.
(years)       Underpaid    69.                67.      68.        42.       46.

Sex           Overpaid     69.      53.       38.      57.        52.       59.
(% male)      Underpaid                      100.      50.        37.       15.

LOS           Overpaid                        79.      41.        30.       14.
(days)        Underpaid

Payment.      Overpaid    3000               1449     8725       6135      3831
              Underpaid   2822     3708      4954     3576       3936      344
Mortality     Overpaid
              Underpaid    15.4     30.       23.     22.         23.       21.
             Appendix D- 1 : DRG 87 hospital                           department making error
 Number by                              Bed size                                            Weighted percentage
 coding depart-            100          100-299                 300+       Total    Sample       Discharge     Hospital
 ment (Percent)

 Urban                     2 (100)          6 (100)           14 (100)                (100)         (100)           (100)
 Rural                  25 (100)            6 (85.                                   (96.          (57.            (79.

 Teaching                                                       6 (100)               (100)        (62.            (40.
 Nonteaching            27 (100)        12 (92.                8 (100)               (97.          (97.            (97.

 Profit                    3 (100)          3 (100)                                   (100)        (63.            (84.
 Nonprofit              24 (100)            9 (90.            14(100)                (97.          (96.            (96.

Total                   27 (100)        12 (92.               14 (100)               (98.          (97.            (97.

* Balance of errors by biling department.



   Appendix D-2: DRG 87 hospital                             department making error comparison
Percent by coding                                    Bed size                         Weighted percentage
department                           -:100           100- 299       300+           Sample     Discharge      Hospital

Urban             DRG 87             100.             100.         100.               100         100         100
NDRGVS            89.                 88.              90.          89.              89.         89.

Rural             DRG 87             100.              85.                           96.         57.          79.
                  NDRGVS              94.              95.          90.              94.         93.          94.

Teaching       DRG 87                                              100.              100         62.         40.
               NDRGVS                 91.              92.          89.             90.          91.         91.

Non-           DRG 87                                  92.         100.             97.          97.         97.
teaching       NDRGVS                 93.              90.          92.             92.          91.         92.

Profit         DRG 87                100.            100.                            100        63.          84.
               NDRGVS                 86.             92.4          81.             89.         86.          87.4
Non-           DRG 87                100.             90.          100.             97.         96.          96.
profit         NDRGVS                 94.             90.           90.             92.         91.          92.
Total          DRG 87                100.             92.          100.             93.         97.          97.
               NDRGVS                 93.             90.           90.             91.         91.          92.
(%)
($)




      Appendix D- 3: DRG 87 hospital     department making error by patient
                                 demography
                                 Bed size                 Weighted average
                         oe100   100- 299    300+     Sample Discharge Hospital

Age          Billng                74.                  74.     27.      24.
(years)      Coding       77.      74.       67.        74.     72.      74.

Sex          Billing
(% male)     Coding       66.      58.       42.        58.     54.      60.

LOS          Billing
(days)       Coding                          13.

Payment      Billng               3986                 3986     1463    1299
             Coding      2828     3685      5632       3763     4180    3550

Mortality    Billng
             Coding       14.      33.       21.4      20.      24.      21.
                   Appendix E- 1: DRG 87 reasons             for errors
                                         Bed size
                             oe100       100- 299          300+             Total      (Percent)

Narrative change                                                                         (48.
Miscoding                                                                                (16.
Resequencing                                                                             (29.
Other                                                                                     (5.

Total                                                                                   (100.




        Appendix E-2:DRG   87 reasons for errors by hospital demography
Number                       Narrative       Miscoding            Resequencing       Other
(Percent)

oe100 beds                  14 (51.           5 (18.               7 (26.            1 (3.
100- 299 beds                7 (53.             1 (7.              3 (23.           2 (15.4)
300+ beds                    5 (35.           3 (21.4)             6 (42.            0 (0.

Urban                       10 (45.4)         3 (13.               8 (36.4)          1 (4.
Rural                       16 (50.           6 (18.               8 (25.            2 (6.

Teaching                     3 (50.           2 (33. 3)'           1 (16.            0 (0.
Nonteaching                 23 (47.           7 (14.              15 (31.            3 (6.
Profit                       5 (83.           1 (16.                0 (0.           0 (0.
Nonprofit                   21 (43.           8 (16.              16 (33.           3 (6.

Total                      26 (48.            9 (16.              16 (29.           3 (5.
                Appendix E- 3: DRG 87 reasons for              errors comparison
Percent                                    Bed size                   Weighted percentage
                             c:100         100- 299    300+       Sample        Discharge   Hospital

Narrative         DRG 87     51.             53.       35.          48.           45.
                  NDRGVS     49.             44.       49.          48.           47.        48.

Miscoding         DRG 87     18.                       21.4         16.            15.        15.
                  NDRGVS     10.4            14.       11.4         11.            12.        11.

Resequencing      DRG 87     26.             23.       42.                        32.        27.
                  NDRGVS     31.             24.       24.          27.           25.        28.

Other             DRG 87                     15.4                                   6.4
                  NDRGVS                     15.       14.          12.           13.         11.




     Appendix E-4: DRG 87 reasons for errors by patient demography
                               Narrative              Miscoding    Resequencing             Other
Age (years)                          75.                 70.              73.                76.
Sex (% male)                         50.                 66.              68.                33.
LOS (days)                                               13.                8.4
Payment ($)                          3387               4735              3934              3261
Mortality (%)                        19.                 22.              25.
                   Appendix F-1: DRG 87 corrected relative weights
 Relative weight                            Bed size                  Average-
                                  -:100     100- 299       300+              Total
Avera
Paid                              5368         5368       5368               5368
Correct                           1830         2619       2589               2277
Diference                         3538         2749       2779               3091
Total
Paid                           59. 9352     43. 0304    38.4200      141. 3856
Correct                        46. 1370     35. 3332    31.4725      112. 9427
Diference                      13. 7982         6972       9475       28. 4429
Overpayment rate (%)              (23.        (17.        (18.           (19.
* Discharge weighted




                   Appendix F-2: DRG 87 corrected reimbursement
                                           Bed size                  Average-
                                 -:100      100- 299      300+           Total
Avera
Paid                              3755        4322        4587               4154
Correct                           2890        3549        3758               3318
Diference                          864         773         830                835
Total
Paid                           146, 419    121 020     114 684       '"0"'   , /22
Correct                        110 525      83, 737         625      271 961
Difference                      35, 893         283     40, 059      110, 162
                  Appendix F- 3: DRG 87 projected cost of errors
Fiscal Year             Reimbursement            Overpayment
                             ($ milion)             ($ milion)

1984                               193.                   37.
1985                               397.                   76.
1986                               304.                   58.
1987                               248.                   47.
1988                               286.4                  58.
1989 est.                          297.                   60.
1990 est.                          300.                   61.
Reimbursement estimates based on linear regression.
Overpayment calculated as 19. 3 percent of reimbursement for 1984- 87 and 11. 8 percent for 1988- 90.
      Appendix G-1 : Correct MDC for discharges miscoded to DRG 87


                                                          Bed size
          MDC                                    -:100    100- 299   300+   Total    (Percent)
         Respiratory                                                                  (53.
         Circulatory                                                                  (40.
         Kidney & urinary tract                                                        (1.
         Infectious diseases                                                           (1.
         Addiction                                                                     (1.
         Total                                                                       (100.




      Appendix G-2: Correct DRG for              discharges miscoded to DRG 87
         DRG                                             Bed size
                                                 -:100    100- 299   300+   Total   (Percent)
         Chronic obstructive pulmonary disease
                                                                                       (9.
         Pneumonia & pleurisy
                                                                                     (13.
         Bronchitis & asthma
                                                                                     (20.4)
         Respiratory signs
127                                                                                   (5.
         Heart failure & shock
                                                                                     (33.
        Subtotal
                                                                                      (81.
        Other
                                                                                     (18.
        Total
                                                                                    (100.
      Appendix G- 3: Correct ICD-               CM principal diagnoses for discharges
                                        miscoded to DRG 87
 Code        Diagnosis                                Number    (Percent)

038.         Septicemia, unspecified                               (1.
197.         Lung metastases                                       (1.
303.         Alcohol dependence                                    (1.
427.         Atrial fibrilation                                    (1.
428.         Congestive heart failure                             (29.
428.         Left heart failure                                    (5.
466.         Acute bronchitis                                     (16.
482.         Hemophilus influenzae pneumonia                       (1.
482.         Streptococcus pneumonia                               (1.
486          Pneumonia, unspecified                                (9.
493.         Asthma, unspecified                                   (3.
496          Chronic airway obstruction                            (9.
584.         Acute renal insufficiency, unspecified                (1.
785.         Shock                                                 (1.
786.         Respiratory symptoms                                  (5.
786.         Chest pain , unspecified                              (1.
799.         Respiratory failure                                   (1.
934.         Foreign body in main stem bronchus                    (1.

            Total                                               (100.




    Appendix G-4: OriginaIICD-9- CM principal diagnosis for discharges

                       incorrectly coded to DRG 87
Code        Diagnosis                                 Number   (Percent)
514         Pulmonary congestion                                 (13.
518.4       Acute lung edema, unspecified                        (20.4)
518.        Pulmonary insufficiency                               (5.
799.        Respiratory failure                                  (61.




 Appendix            5:   ICD- CM codes for discharges correctly coded to DRG


Code        Diagnosis                                 Number   (Percent)
518.4       Acute lung edema, unspecified                       (21. 1 )
799.        Respiratory failure                                 (78.
                     Appendix H- 1:            DRG 87 clinical review
Number                         Bed size                                              Weighted percentage
(Percent)          .: 1 00     100- 299               300+           Total    Sample       Discharge      Hospital

Unnecessary         2 (5.          0 (0.              0 (0.                     (2.           (1.             (2.
admissions

Poor quality       7 (17.          2 (7.              1 (4.                    (10.           (8.         (12.
of care

Premature           2 (5.          0 (0.              0 (0.                     (2.           (1.             (2.
discharges




               Appendix H- 2:      DRG 87 clinical review comparison
Percent                                    Bed size                              Weighted percentage
                             .:100         100- 299           300+           Sample      Discharge     Hospital

Unnecessary     DRG 87
admissions      NDRGVS       12.             10.                               10.          10.         11.

Poor quality    DRG 87       17.                                               10.                      12.
of care         NDRGVS       11.

Premature       DRG 87
discharge       NDRGVS                                                                                   1.4
